Gulf Winds Credit Union
220 E Nine Mile Rd
Pensacola, FL 32534-3121
(850) 479-9601
GoGulfWinds.com

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
2/1/2021
accurate as of _______________
. You can contact us toll free at (800) 650-6328 or the number or address on above to inquire
if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR)
for Purchases, Cash Advances,
& Balance Transfers

VISA PLATINUM REWARDS

VISA PLATINUM

VISA SECURED

9.90%, 10.90%,
12.90%, 15.90%, or
17.90%

6.90%, 7.90%,
9.90%, 12.90%, or
17.90%

9.00%

depending on your credit history.

depending on your credit history.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire new purchase balance by the
due date each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
- Annual Fee:
- Application Fee:

None
None

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

None
None
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
1% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

Up to $20.00 if your payment is late
Up to $20.00 if you exceed your credit limit
Up to $30.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

9009 LASER FPDF FI1000634 Rev 9- 2019

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

